No. 20IN THE

Supreme Court of the United States
DEMETRIUS WILLIAM EDWARDS AND
BRYANT LAMONT ROYSTER,
Petitioners,
v.
SHERRY L. BURT, WARDEN, AND
KEVIN LINDSEY, WARDEN,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF SERVICE
I, Alan E. Schoenfeld, a member of the bar of this Court, hereby certify that, on
this 26th day of February, 2021, all parties required to be served have been served
copies of the Petition for a Writ of Certiorari in this matter by overnight courier to the
address on the attached service list.

ALAN E. SCHOENFELD
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 937-7294
alan.schoenfeld@wilmerhale.com

SERVICE LIST
DANA NESSEL
MICHIGAN ATTORNEY GENERAL
FADWA HAMMOND
MICHIGAN SOLICITOR GENERAL
JARED D. SCHULTZ
JOHN S. PALLAS
SCOTT R. SHIMKUS
ASSISTANT ATTORNEY GENERAL
MICHIGAN DEPARTMENT OF THE ATTORNEY GENERAL
Criminal Appellate Division
525 W. Ottawa Street
PO Box 30212
Lansing, MI 48909
(517) 335-7650
schultzj15@michigan.gov
pallasj@michigan.gov
shimkuss@michigan.gov

2

